tN

COCKLE

Legal Briefs

Est. 1g23

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964

(402) 342-2831
Fax: (402) 342-4850

No. 21-348

JOHNSON & JOHNSON AND JOHNSON &
JOHNSON CONSUMER COMPANIES, INC.,

Petitioners,
Vv.

MISSISSIPPI, ex rel. LYNN FITCH.

Attorney General of Mississippi,
Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriets.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE PRODUCT LIABILITY ADVISORY COUNCIL, INC. IN SUPPORT OF PETITION
FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface requirement

of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text

and 10 point for the footnotes, and this brief contains 5999 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 4th day of October, 2021,
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

A GEHERAL NOTARY-Statz of Hebraska
RENEE J. GOSS
fy Comm. Exp. September 5, 2623

    

Natary Public

Loos Onndiae- bh. OB hae

41383
